NATIONAL ENDOWMENT FOR THE ARTS
    OFFICE OF INSPECTOR GENERAL




 SEMIANNUAL REPORT TO THE CONGRESS

   APRIL 1, 2013 - SEPTEMBER 30, 2013
SEMIANNUAL REPORT TO THE CONGRESS
      APRIL 1, 2013 - SEPTEMBER 30, 2013

       OFFICE OF INSPECTOR GENERAL

     NATIONAL ENDOWMENT FOR THE ARTS
                                                                        October 30, 2013



MEMORANDUM

TO:           Joan Shigekawa
              Senior Deputy Chairman

FROM:         Tonie Jones
              Inspector General

SUBJECT:      Semiannual Report to the Congress: April 1, 2013 - September 30, 2013

The Inspector General Act of 1978 (IG Act), as amended (5 USC App.), calls for the
preparation of semiannual reports to the Congress summarizing the activities of the Office of
Inspector General (OIG) for the six-month periods ending each March 31 and September 30.
I am pleased to enclose the report for the period from April 1, 2013 - September 30, 2013.

The IG’s report is intended to cover audits, inspections, evaluations, investigations and other
reviews conducted by the OIG. The report also indicates the status of management decisions
whether to implement or not to implement recommendations made by the OIG. The former
President’s Council on Integrity and Efficiency developed the reporting formats for Tables I and
II to ensure consistent presentation by the Federal agencies. The tables provide only summary
totals and do not include a breakdown by auditee.

The IG Act requires that you transmit this report to the appropriate committees of the Congress
within 30 days of receipt, together with any comments you may wish to make. Comments that
you might offer should be included in your "Report on Final Action," a management report that
is required to be submitted along with the IG’s report. We will work closely with your staff to
assist in the preparation of the management report. The due date for submission of both
reports is November 30, 2013.

I appreciate the continuing support we have received from the Chairman’s Office and your
managers. Working together, I believe we have taken positive steps to improve NEA programs
and operations. We look forward to continuing these efforts.
                                 TABLE OF CONTENTS
                                                                                   PAGE

NATIONAL ENDOWMENT FOR THE ARTS                                                      1

OFFICE OF INSPECTOR GENERAL                                                          1

SUMMARY OF WORK COMPLETED BY THE OIG                                                 2

   Audits/Inspections/Evaluations/Reviews                                            2
   Audit Resolution                                                                  2
   Inspections                                                                       2
   Investigations                                                                    2
   Audit of NEA Fiscal Year 2013 Financial Statements                                3
   NEA’s Compliance with the Federal Information Security Management Act of 2002     3
   Review of Legislation, Rules, Regulations and Other Issuances                     4
   Technical Assistance                                                              4
   Web Site                                                                          4
   Other Activities                                                                  4
   Strategic Plan & Five-Year Audit Plan                                             5

SECTIONS OF REPORT                                                                   6

   SECTION 1 - Significant Problems, Abuses and Deficiencies                         6

   SECTION 2 - Recommendations for Corrective Action                                 6

   SECTION 3 - Recommendations in Previous Reports on Which
                 Corrective Action Has Not Been Implemented                          6

   SECTION 4 - Matters Referred to Prosecuting Authorities                           7

   SECTION 5 - Denials of Access to Records                                          7

   SECTION 6 - Listing of Reports Issued                                             8

   SECTION 7 - Listing of Particularly Significant Reports                           9

   SECTION 8 - Statistical Tables Showing Total Number of Audit Reports,
                 Inspection Reports and Evaluation Reports, and the
                 Dollar Value of Questioned Costs                                    9

   SECTION 9 - Statistical Tables Showing Total Number of Audit Reports,
                 Inspection Reports and Evaluation Reports, and the Dollar
                 Value of Recommendations that Funds be Put to Better
                 Use by Management                                                   9
                                TABLE OF CONTENTS

                                                                                        PAGE

     SECTION 10 - Audit Reports, Inspection Reports and Evaluation Reports
                   Issued Before the Commencement of the Reporting
                   Period for Which No Management Decision Has Been Made by
                   the End of the Reporting Period                                          9


     SECTION 11 - Significant Revised Management Decisions Made During the Period           9

     SECTION 12 - Significant Management Decisions With Which the Inspector
                    General Disagrees                                                       9

TABLE I - Inspector General Issued Reports With Questioned Costs                           10

TABLE II - Inspector General Issued Reports With Recommendations That Funds
              Be Put To Better Use                                                         11

Definitions of Terms Used                                                           Appendix A

Strategic Plan & Five-Year Audit Plan 2014 – 2018                                   Appendix B
NATIONAL ENDOWMENT FOR THE ARTS
Founded in 1965, the National Endowment for the Arts (NEA) offers assistance to a wide range of
non-profit organizations and individuals that carry out arts programming, as well as to State Arts
Agencies and Regional Arts Organizations. NEA supports exemplary projects of excellence in the
artistic disciplines of artist communities, dance, design, folk and traditional arts, literature, media arts,
museums, music, musical theater, opera, presenting, theater, and visual arts, as well as for arts
education projects and local arts agencies. Grants are awarded for specific projects rather than for
general operating or seasonal support. Most NEA grants are matched dollar for dollar with non-
Federal funds. Through the Consolidated and Further Continuing Appropriations Act, 2013, NEA
received $145.729 million, net a 0.16% across-the-board rescission included in Division F, Section
1101(c)(1), and a 0.2% across-the-board rescission included in Division G, Section 3004(c)(1). This
appropriation was further subject to a reduction of $7.346 million per a sequestration order issued by
the President on March 1, 2013.

OFFICE OF INSPECTOR GENERAL
The Inspector General Act of 1978 (IG Act), as amended (5 USC App.), established independent,
objective units within Federal agencies for oversight purposes. In 1988, the Congress amended
the IG Act (Public Law 100-504) to establish statutory Inspectors General at additional departments
and agencies, as well as at designated Federal entities and establishments, including NEA. The
mission of the OIG is to:

       -       Conduct and supervise independent and objective audits, inspections and
               evaluations relating to NEA programs and operations;

       -       Promote economy, effectiveness, and efficiency within the NEA;

       -       Prevent and detect fraud, waste, and abuse in NEA programs and operations;

       -       Review and make recommendations regarding existing and proposed legislation and
               regulations relating to NEA programs and operations; and

       -       Keep NEA Chairman and Congress fully and currently informed of problems in NEA
               programs and operations.

On October 14, 2008, the President signed the Inspector General Reform Act of 2008 (Public Law
110-409), which amends the previous IG Act of 1978 by enhancing the independence of the
Inspectors General and creating a Council of the Inspectors General on Integrity and Efficiency
(Council).

This semiannual report summarizes NEA OIG's major activities, initiatives, and results for the six-
month period ending September 30, 2013. NEA OIG consists of four full-time positions, the
Inspector General and three auditors. Currently, NEA OIG is fully staffed. There is no investigator
or general counsel on the staff. To provide a reactive investigative capability, we have a
Memorandum of Understanding with the General Services Administration’s Office of Inspector
General (GSA OIG) to provide investigative coverage for us on a reimbursable basis as needed.
(No investigative coverage from GSA OIG was needed during the recent six-month period.) We
have a Memorandum of Understanding with the National Credit Union Administration’s Office of
Inspector General (NCUA OIG) that details procedures to be used for providing NEA OIG with legal
services pursuant to the new requirements reflected in the 2008 Act. An NCUA OIG staff member

                                                                                                                1
has been assigned to provide such services on an as-needed basis. We also have a Memorandum
of Understanding with the US International Trade Commission's Office of Inspector General
(US/ITC OIG) to provide technical assistance with our evaluation of NEA's compliance with the
Federal Information Security Management Act of 2002.

SUMMARY OF WORK COMPLETED BY THE OIG
During the six-month period ending September 30, 2013, NEA OIG conducted the following audits,
inspections, evaluations, reviews, investigations, and other activities.

Audits/Inspections/Evaluations/Reviews

During the recent semiannual period, NEA OIG issued three reports which contained twelve
recommendations based on audits and evaluations performed by OIG personnel. One report, to an
NEA grantee, contained four recommendations which remain open. Two reports to NEA relating to
grantees contained eight recommendations, all of which were implemented during this reporting
period.

Audit Resolution

At the beginning of the six-month period, there was one report awaiting a management decision to
allow or disallow questioned costs for four awards in the amount of $163,000 with potential refunds
of $141,933. During the current period, management decisions were made to (1) allow $8,000 in
questioned costs, (2) disallow $135,000 in questioned costs and (3) terminate an award in the
amount of $20,000.

Management made a decision on two awards to allow questioned costs in the amount of $8,000.
Management accepted documentation to support $2,000 of the questioned costs for one award.
The organization submitted a refund of $6,000 to the NEA for the second award. Therefore,
potential refunds were reduced by $6,933. A management decision was also made for the
remaining award to disallow questioned costs in the amount of $135,000, with a potential refund of
$135,000. (See Table I)

Inspections

NEA OIG did not conduct any inspections during the recent six-month period.

Investigations

Along with the OIGs for the National Endowment for Humanities and the National Science Foundation,
we conducted an investigation of a Massachusetts public broadcasting company. Based on our
review, we determined that the broadcasting company was in violation of the award terms,
administrative policies and procedures and Federal regulations. It was also determined that the
broadcasting company did not have an adequate accounting system to track and account for Federal
grant funds.

We referred the matter to the US Attorney’s Office for the District of Massachusetts, which
commenced negotiations with the broadcasting company. The US Attorney’s Office entered into a
civil settlement requiring the company to repay a total of $300,170—of which $1,746 was NEA
funds—and a five-year compliance plan to strengthen its oversight of Federal funds.

                                                                                                      2
NEA OIG did not open any new allegation cases during the recent six-month period.

Audit of NEA Fiscal Year 2013 Financial Statements

The Accountability of Tax Dollars Act of 2002 requires NEA OIG or an independent external
auditor, as determined by the Inspector General, to audit the agency financial statements. Under a
competitively awarded contract monitored by NEA OIG, Leon Snead & Company, an independent
certified public accounting and management consulting firm, received a one-year contract, with a
four-year option, in January 2011 to audit NEA’s financial statements. The audit will be conducted
following Generally Accepted Government Auditing Standards and US Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
revised. In addition, the firm will provide reports on internal controls and compliance with laws and
regulations for matters relevant to the financial statement audit. The report is scheduled to be
issued by the required deadline.

NEA’s Compliance with the Federal Information Security Management Act of 2002

Federal Information Security Management Act of 2002 (FISMA) requires that each Federal agency
develop, document, and implement an agency-wide program for providing security for the
information and information systems that support the operations and assets of the agency,
including those provided or managed by another agency, contractor, or other source.

NEA OIG completed a full FISMA evaluation in Fiscal Year (FY) 2012 using the most recent
applicable FISMA requirements and guidelines published by OMB, the US Department of
Homeland Security and the National Institute of Standards and Technology. The assessment
found that although NEA made progress in complying with FISMA, some additional improvements
were needed. NEA OIG made four recommendations. One corrective action has been
implemented. Corrective actions are in process for the three remaining recommendations.

During the prior reporting period, two evaluation reports were issued on NEA's network perimeter
security and patching programs. The evaluations were performed by US/ITC OIG on behalf of the
NEA OIG. The evaluation of NEA's perimeter security concluded that while NEA's perimeter defense
is effective, continuous attention and improvement are required to ensure that it remains effective in
the future. The report contained seven recommendations. The evaluation of NEA's patching program
concluded that NEA has not implemented an effective, comprehensive system maintaining patch
levels. The report contained six recommendations. Corrective actions for all of the recommendations
are in process.

During the FY 2011 FISMA evaluation, NEA OIG made eleven recommendations, nine of which have
been implemented. The remaining two are in process.

NEA OIG is currently conducting the FY 2013 FISMA evaluation, which is due to OMB on
November 30, 2013.




                                                                                                        3
Review of Legislation, Rules, Regulations and Other Issuances

NEA OIG is required to review and comment on proposed legislation and regulations for potential
impact on NEA and its operations. During this reporting period, NEA OIG provided analyses and
written commentaries on NEA and other government publications/reports and regulations.

Technical Assistance

NEA OIG provided technical assistance to NEA grantees and their independent auditors. Our
efforts included, for example, clarifying and interpreting the audit requirements of OMB Circular
A-133, “Audits of States, Local Governments, and Non-Profit Organizations," and advising some of
the first-time and smaller organizations on implementing practical accounting systems and internal
controls sufficient to assure compliance with their grant agreements.

NEA OIG also assisted NEA staff with technical issues related to auditing, accounting, and audit
followup.

Web Site

NEA OIG maintains an ongoing Internet presence (www.arts.gov/about/OIG/Contents.html) to
assist and inform NEA employees and grantees. The site includes pages for Reporting Fraud,
Waste and Abuse; Reports; Guidance; Recovery Act; Career Opportunities; Frequently Asked
Questions and Other Resources.

Other Activities

During this period, NEA OIG participated in the activities of the Council. We allocated resources
for responding to information requests from and for the Congress and other agencies. We have
also participated in various efforts by the Council and other Federal agencies to develop effective
oversight strategies for Federal awards. We continued our oversight of American Recovery and
Reinvestment Act of 2009 (ARRA) funds with an emphasis on award recipients’ management of
ARRA funds.

The Government Accountability Office’s Government Auditing Standards requires audit organizations
that perform audits or attestation engagements to have an appropriate system of quality control and to
undergo external peer reviews at least once every 3 years. Federal audit organizations can receive a
rating of Pass, Pass with deficiencies, or Fail. A peer review of NEA OIG was conducted in August
2010 by the Federal Trade Commission's Office of Inspector General. NEA OIG received a rating of
Pass. The Consumer Product Safety Commission's Office of Inspector General is currently
conducting our peer review for 2013.

The Improper Payments Information Act (IPIA) of 2002 3 and OMB Circular A-123, Appendix C,
Management’s Responsibility for Internal Control: Requirements for Effective Measurement and
Remediation of Improper Payments, require agencies to review all programs and activities, identify
those that are susceptible to significant erroneous payments, and determine an annual estimated
amount of erroneous payments. The IPIA was followed by the Improper Payments Elimination and
Recovery Act (IPERA) in 2010 and a series of OMB memoranda which included requirements for
Inspectors General to annually review and report on their agency’s compliance with IPERA. We
issued our annual report for 2013.

3
    P.L. 111-204.
                                                                                                      4
Strategic Plan & Five-Year Audit Plan

We have issued our Strategic Plan & Five-Year Audit Plan for the Years 2014 – 2018. Our planning
methodology is built around the concept of issue areas and issues. The issue areas are broad
categories of prime importance: they highlight the priorities of our customers - NEA management,
the Congress and the American people. The individual issues, expressed as questions, represent
an assessment of the most significant concerns facing NEA. The methodology also includes the
formulation of annual audit work plans.




                                                                                                   5
                                 SECTIONS OF REPORT
The following sections of this report discuss the 12 areas specifically required to be included
according to Section 5(a) of the IG Act of 1978, as amended. Table I shows Inspector General
issued reports with questioned costs and Table II shows that there were no Inspector General
issued reports with recommendations that funds be put to better use.

SECTION 1 – Significant Problems,                    SECTION 2 – Recommendations for
Abuses and Deficiencies                              Corrective Action

Audits, evaluations and other reviews                To assist grantees in correcting or avoiding
conducted by NEA OIG personnel during the            the deficiencies identified in Section 1, NEA
current and prior periods have disclosed a           OIG utilizes two “Financial Management
few instances of deficient financial                 Guides,” one for non-profit organizations and
management practices in some organizations           the other for state and local governments.
that received NEA grants. Among these                The guides are not offered as complete
were:                                                manuals of procedures; rather, they are
                                                     intended to provide practical information on
•   Not accounting for costs separately by           what is expected from grantees in terms of
    grant award; (e.g., accounting structures        fiscal accountability. The guides are available
    that do not provide accurate and complete        at www.arts.gov/about/OIG/Guidance.html.
    information about all financial transactions
    related to each Federally-supported              The guides discuss accountability standards
    project);                                        in the areas of financial management, internal
                                                     controls, audit, and reporting. The guides
•   Reported grant project costs did not agree       also contain sections on unallowable costs
    with the accounting records, (e.g.,              and shortcomings to avoid. In addition, the
    financial status reports were not always         guides include short lists of useful references
    prepared directly from the general ledger,       and some sample documentation forms.
    subsidiary ledgers or worksheets);
                                                     SECTION 3 – Recommendations in
•   Personnel costs charged to grant projects        Previous Reports on Which Corrective
    were not supported by adequate                   Action Has Not Been Implemented
    documentation, (e.g., personnel activity
    reports were not maintained to support           Prior to this period, we became aware of
    allocations of personnel costs to NEA            significant deficiencies in the management of
    projects);                                       Federal awards by a NEA grant recipient. We
                                                     performed a limited scope audit which
•   Grantees needed to improve internal              confirmed the deficiencies and as a result, we
    controls, (e.g., ensuring that contractors       issued eleven recommendations to the grant
    and recipients are not debarred or               recipient and two recommendations to NEA.
    suspended from receiving Federal funds           NEA implemented corrective actions for the
    prior to the payment or award of Federal         two recommendations. The grant recipient
    funds and developing written policies and        implemented corrective actions for three of
    procedures for the management of                 the eleven recommendations. Therefore,
    Federal awards).                                 eight recommendations remain open, which
                                                     includes the disallowed questioned costs in
                                                     the amount of $135,000, with a potential
                                                     refund of $135,000.




                                                                                               6
SECTION 4 – Matters Referred to             SECTION 5 – Denials of Access to
Prosecuting Authorities                     Records

No matters were referred to prosecuting     No denials of access to records occurred
authorities during this reporting period.   during this reporting period.




                                                                                       7
                  SECTION 6 – Listing of Reports Issued and OIG Hotline Contacts



REPORT                                                                                                                                      DATE OF
NUMBER                                                              TITLE                                                                   REPORT


                                                       Limited Scope Audit Report

    LS-13-04       District of Columbia Commission on the Arts and Humanities (DC)...................................... 09/23/13


                                                                  Special Reviews

    R-13-04        Recommendation for Debarment Actions 4 .......................................................................... 02/21/13

                                                            Financial Analysis Report

    FA-13-01       New Federal Theatre (NY) .................................................................................................... 08/28/13


                                                          TOTAL REPORTS - 3


                                                                  Contacts

                                 Telephone Calls………………………………………………………………….                                                             2
                                 Email ……………………………………………………………………………..                                                                 0
                                 Standard Mail…………………………………………………………………….                                                              0
                                 Referred by Other Sources……………………………………………………..                                                       0
                                 Fax………………………………………………………………………………..                                                                   0

                                                        TOTAL CONTACTS – 2




4
    Report No. R-13-04 was not included in prior semi-annual reporting due to sensitive information.
                                                                                                                                                            8
SECTION 7 – Listing of Particularly Significant         SECTION 10 – Audit Reports, Inspection
Reports                                                 Reports, and Evaluation Reports Issued Before
                                                        the Commencement of the Reporting Period for
There were no particularly significant reports during   Which No Management Decision Has Been
the reporting period.                                   Made by the End of the Reporting Period
.
SECTION 8 – Statistical Tables Showing Total            As shown on Table I, there were no audit reports
Number of Audit Reports, Inspection Reports,            issued before the commencement of the reporting
and Evaluation Reports and the Dollar Value of          period for which no management decision has been
Questioned Costs                                        made by the end of the reporting period.

Table I of this report presents the statistical         SECTION 11 – Significant Revised Management
information showing the total number of                 Decisions Made During the Period
audit reports, inspection reports, and
evaluation reports and the total dollar value           No significant revised management decisions were
of questioned costs.                                    made during the reporting period.

SECTION 9 – Statistical Tables Showing                  SECTION 12 – Significant Management
Total Number of Audit Reports, Inspection               Decisions With Which the Inspector General
Reports, and Evaluation Reports and the Dollar          Disagrees
Value of Recommendations that
Funds be Put to Better Use by                           There were no significant management decisions
Management                                              that the Inspector General disagreed with during
                                                        the reporting period.
As shown on Table II, there were no audit reports,
inspection reports and evaluation reports with rec-
ommendations that funds be put to better use by
management.




                                                                                                    9
                                                                    TABLE I

                               INSPECTOR GENERAL ISSUED REPORTS
                                     WITH QUESTIONED COSTS


                                                                                     QUESTIONED UNSUPPORTED                          POTENTIAL
                                                                    NUMBER                COSTS                  COSTS               REFUNDS           5

         A. For which no management decision
             has been made by the commencement
             of the reporting period                                      1                163,000                (28,000)               141,933


         B. Which were issued during the reporting
             period                                                        1                48,000                       (0)               24,000


             Subtotals (A + B)                                             2               211,000                (28,000)               165,933


         C. For which a management decision was
             made during the reporting period           6                 1                163,000                (28,000)               141,933


             (i)    Dollar value of disallowed costs                      1                155,000                (20,000)               135,000


             (ii)   Dollar value of costs not
                    disallowed                                            1                   8,000                 (8,000)                 6,933


         D. For which no management decision has
              been made by the end of the reporting
              period                                                      0                 48,000                (48,000)                 24,000


             Reports for which no management
             decision was made within six months of
             issuance                                                     0                           0                  (0)                      0




5
    The potential refund amount may not equal the questioned cost amount because matching requirements must be considered and the grantee
    may be either under or over matched. In addition, historically, the potential refund generally is reduced significantly as a result of the audit
    follow-up process, which includes examination of documentation submitted by the grantee.

6 In one report, management decisions were made to (1) not accept $135,000, (2) terminate a $20,000 award , (3) accept $2,000 in questioned
costs. The organization also refunded $6,000 to the NEA.
                                                                                                                                                       10
                                       TABLE II

         INSPECTOR GENERAL ISSUED REPORTS
WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                             DOLLAR
                                                    NUMBER    VALUE

 A. For which no management decision has been
    made by the commencement of the reporting
    period                                            0        0

 B. Which were issued during the reporting
    period                                            0        0

    Subtotals (A + B)                                 0        0

 C. For which a management decision was made
    during the reporting period                       0        0

    (i)    dollar value of recommendations
           that were agreed to by management          0        0

           - based on proposed management
             action                                   0        0

           - based on proposed legislative action     0        0

    (ii)   dollar value of recommendations that
           were not agreed to by management           0        0

 D. For which no management decision has been
    made by the end of the reporting period           0        0

    Reports for which no management decision
    was made within six months of issuance            0        0




                                                                      11
                                                                                  APPENDIX A


                            DEFINITIONS OF TERMS USED

The following definitions apply to terms used in reporting audit statistics:


Questioned Cost                       A cost that the Office of Inspector General (OIG)
                                      questioned because of alleged violation with a provision of
                                      a law, regulation, contract, other agreement or document
                                      governing the expenditure of funds; such cost is not
                                      supported by adequate documentation; or the expenditure
                                      of funds for the intended purpose is unnecessary or
                                      unreasonable.

Unsupported Cost                      A cost which the OIG questioned because the cost was
                                      not supported by adequate documentation at the time of
                                      the audit.

Disallowed Cost                       A questioned cost that management has sustained or
                                      agreed should not be charged to the NEA grant or
                                      cooperative agreement.

Funds Be Put To Better Use            A recommendation made by the OIG that funds could be
                                      used more efficiently if management took actions to
                                      implement and complete the recommendation.

Management Decision                   Management's evaluation of the findings and
                                      recommendations contained in the audit report and the
                                      issuance of management’s final decision, including actions
                                      to be taken. Interim decisions and actions are not
                                      considered final management decisions for the purpose of
                                      the tables in this report.

Final Action                          The completion of all actions that management has
                                      concluded in its management decision with respect to
                                      audit findings and recommendations. If management
                                      concluded that no actions were necessary, final action
                                      curs when a management decision was made.
                               APPENDIX B




   STRATEGIC PLAN
          &
FIVE-YEAR AUDIT PLAN
      2014- 2018




  National Endowment for the Arts
    Office of Inspector General
             October 2013
                                               Table of Contents

                                                                                                                           Page

INTRODUCTION ........................................................................................................... 1

     Foreword .................................................................................................................. 1

     OIG Mission Statement ............................................................................................ 1

     Duties and Responsibilities of the Inspector General ............................................... 1

     Authority of the Inspector General ............................................................................ 2

     Jurisdiction of the Inspector General ........................................................................ 3

     Planning Methodology .............................................................................................. 3

     OIG Resource Requirements .................................................................................... 4

STRATEGIC ISSUE AREAS .......................................................................................... 5

     Issue Area 1: NEA Program Activities ..................................................................... 5

     Issue Area 2: NEA Administrative Operations ......................................................... 6

     Issue Area 3: OIG Administration and Investigations .............................................. 7

PERFORMANCE MEASURES .................................................................................... 9

FIVE-YEAR AUDIT PLAN ............................................................................................. 10

     Audit Plan FY 2014 ................................................................................................ 11

     Audit Plan FY 2015 ................................................................................................ 12

     Audit Plan FY 2016 ................................................................................................ 13

     Audit Plan FY 2017 ................................................................................................ 14

     Audit Plan FY 2018 ................................................................................................. 15

     Other Activities ........................................................................................................ 16
                                    INTRODUCTION

Foreword
The National Endowment for the Arts (NEA) Office of Inspector General (OIG) was established
in 1989 pursuant to Public Law 100-504, "The Inspector General Act Amendments of 1988" (IG
Act). On October 14, 2008, the President signed the Inspector General Reform Act of 2008
(Public Law 110-409), which amends the previous IG Act to enhance the independence of the
Inspectors General, to create a Council of the Inspectors General on Integrity and Efficiency,
and other purposes. This document describes the plan of NEA OIG for discharging its ongoing
responsibilities under the IG Act, and for meeting its operational objectives for the period from
fiscal year 2014 through fiscal year 2018.

This strategic plan is also a response to the General Accounting Office Report No. B-244053,
"Inspectors General: Action Needed to Strengthen OIGs at Designated Federal Entities." That
report recommended that OIGs develop strategic plans, prepare annual work plans for each
year of a five-year period, and report the plans to their entity heads and, in their semiannual
reports, to the Office of Management and Budget (OMB) and the Congress.

OIG Mission Statement
NEA OIG is a team of skilled personnel dedicated to helping NEA reach its essential goals and
objectives. To this end, NEA OIG independently conducts activities such as audits, evaluations,
investigations and special reviews with accuracy, balance and objectivity. Working with
management to help avoid problems before they occur, our mission is to: promote economy,
efficiency and effectiveness in NEA activities; prevent and detect fraud, waste and abuse;
advocate ethics in government; and keep the Chairman and the Congress fully and currently
informed about problems and deficiencies relating to the administration of NEA programs and
operations.

In achieving our mission, the staff of NEA OIG will be fair and equitable, performing our duties
with honesty and integrity. We will strive to be leaders and innovators in our field of expertise
and will be accountable for meeting our responsibilities. We will cooperate with all components
of NEA, giving proper recognition to the rights, authorities and duties of its employees and the
public it serves.

Duties and Responsibilities of the Inspector General
The Inspector General (IG) shall:

•   Provide policy direction for, and conduct, supervise, and coordinate audits (including
    evaluations and other reviews that are conducted in accordance with applicable government
    standards) and investigations relating to the programs and operations of NEA;

•   Review existing and proposed legislation and regulations to determine their impact on
    economy and efficiency in the administration of, and the prevention and detection of fraud,
    waste and abuse in NEA programs and operations;




                                                                                                  1
•   Recommend policies and conduct, supervise, or coordinate activities both internal and
    external to NEA, for the promotion of economy and efficiency, and the prevention and
    detection of fraud, waste and abuse in NEA programs and operations;

•   Keep the NEA Chairman and the Congress fully and currently informed concerning fraud
    and other serious problems, abuses, and deficiencies relating to the administration of
    programs and operations financed by NEA, or the identification and prosecution of
    participants committing such fraud or abuse;

•   Comply with standards established by the Comptroller General of the United States for
    audits of Federal establishments, organizations, programs, activities and functions
    (Government Auditing Standards);

•   Give particular regard to the activities of the Comptroller General of the United States with a
    view toward avoiding duplication and ensuring effective coordination and cooperation;

•   Establish guidelines for determining when it shall be appropriate to use non-Federal
    auditors, and give due regard to assuring that any work performed by non-Federal auditors
    complies with the Comptroller General's standards; and

•   Report expeditiously to the Attorney General whenever the IG has reasonable grounds to
    believe there has been a violation of Federal criminal law.

Authority of the Inspector General
To carry out these responsibilities, the Congress has given the IG:

•   Access to all records, reports, audits, reviews, documents, papers, recommendations, or
    other material available to NEA which relate to its programs and operations;

•   Authority to conduct such investigations and reviews that are, in the judgment of the
    Inspector General, necessary or desirable;

•   Authority to request information or assistance from any Federal, state or local government
    agency or unit thereof, as may be necessary for carrying out the duties and responsibilities
    of the Inspector General Act;

•   Authority to issue subpoenas;

•   Authority to administer and take an oath, affirmation or affidavit from any person when
    necessary;

•   Direct and prompt access to the NEA Chairman;

•   Authority to select, appoint and employ such officers and employees as may be necessary
    for carrying out the functions, powers and duties of NEA OIG; and

•   Within the limits of the established budget, authority to contract for audits, studies, analyses
    and other services.




                                                                                                   2
Jurisdiction of the Inspector General
NEA OIG consolidates audit and investigative capabilities under the direction of a single official,
the IG, who in turn reports directly to the NEA Chairman and the Congress. Three important
features characterize NEA OIG: independence, objectivity and integrity.

Although under the Chairman’s general supervision, the Chairman may not prevent or prohibit
the IG from initiating, performing, or completing any audit or investigation. The IG is also
vested with special authorities that facilitate the performance of his or her mandate, and it is
from these provisions that the element of independence derives.

The IG legislation states that there should be no conflicting policy responsibilities between the
IG and the Agency, thereby ensuring objectivity and independence. The IG's sole responsibility
is auditing, investigating, and initiating other activities designed to promote economy and
efficiency, and detect and prevent fraud, waste and abuse.

The investigative jurisdiction of NEA OIG includes all allegations of fraud, abuse and
mismanagement, and any apparent or suspected violations of statute, order, regulation or
directive in connection with any program or operation of NEA.

The audit jurisdiction of NEA OIG encompasses a wide range of audit services, including audits
and special reviews. Audits are characterized as: financial or performance; full-scope or
limited-scope; and external (focusing on the records of recipients of NEA funding) or internal
(focusing on operations and activities carried on within NEA). Special reviews are used to
appraise and provide information about particular programs or projects. They include
inspections (typically focused on compliance issues), evaluations (commonly focused on
assessments of grantees’ financial management systems and grantee compliance), and
electronic data processing reviews (focused on data centers, application systems or
telecommunication systems). As part of our audit and review process, we examine audit
reports issued by other Federal agencies, state auditors, and independent public accountants to
determine whether the results of audits have either a past, current or potential effect on NEA
awards and what action, if any, is required by NEA. In addition, reviews may be conducted of
individual awards to ensure proper reporting of expenditures.

The Inspector General's jurisdiction also includes the review of existing and proposed
legislation and regulations relating to NEA programs and activities. This is essentially a
reactive activity, limited to commenting on and making recommendations about the impact of
the legislation or regulation on economy and efficiency or the prevention of fraud, waste and
abuse. As an adjunct to the legal requirement, the Inspector General is consulted as a matter
of NEA policy prior to issuance of internal directives and other significant pronouncements.

The Inspector General's jurisdiction is not always limited to the areas listed above. The IG may,
as circumstances dictate, be given special assignments by the NEA Chairman.

Planning Methodology
The planning methodology that we have adopted is built around the concepts of issue areas
and issues. Issue areas are broad categories of prime importance: they highlight the priorities
of our customers -- NEA management, the Congress, and the American people -- and contain a
number of narrower topics or individual issues. The individual issues, expressed as questions,
represent an assessment of the most significant concerns facing NEA.


                                                                                                   3
The methodology also includes the formulation of annual audit work plans. The annual plan
defines the work to be done by: identifying individual jobs; assigning priorities; linking jobs to
the strategic issue areas; allocating staff among issue areas and issues; and serving as a
device for communicating with NEA officials. The work plans will, of course, require periodic
updates to reflect shifts in issue emphasis as well as changes in audit resources.

It is expected that issue area planning will:

•   Establish multi-year audit objectives consistent with NEA and congressional needs;

•   Focus NEA OIG's resources on issues that represent the greatest risk to NEA and those
    that offer the most opportunity for adding value;

•   Reflect NEA OIG's budget requests and resource allocation decisions; and

•   Provide a basis for measuring results and ensuring accountability.

OIG Resource Requirements
NEA OIG staff currently consists of four full-time positions, namely, the IG and three other
auditors. There is no investigator or general counsel on staff. To provide a reactive
investigative capability, we have a Memorandum of Understanding with the General Services
Administration's Office of Inspector General (GSA OIG) whereby GSA OIG agrees to provide
investigative coverage for us on a reimbursable basis as needed. We have a Memorandum
of Understanding with the National Credit Union Administration's Office of Inspector General
that details procedures to be used for providing NEA OIG with legal services pursuant to the
new requirements reflected in the 2008 Act. We also have a Memorandum of Understanding
with the US International Trade Commission's Office of Inspector General to provide
technical assistance for our evaluation of NEA's compliance with the Federal Information
Security Management Act of 2002.

It is possible that the resources provided for NEA OIG may, at some time, need to be changed.
Any such adjustment should be based on periodic evaluations of NEA OIG as gauged by the
performance measures identified in this strategic plan and available resources.




                                                                                                     4
                           STRATEGIC ISSUE AREAS
Issue Area 1:      NEA Program Activities

                   Major functions include:

                       •   Project monitoring; allowable costs; and compliance with reporting
                           requirements, and general terms and conditions
                       •   Audit followup
                       •   Grant award process

                Issue 1.1: Does NEA evaluate completed projects to assess the benefits and
                           accomplishments attributable to NEA funding?

                           Strategy: NEA OIG will work with NEA management to assess the
                           effectiveness of NEA practices for reviewing the results obtained by
                           recipients' projects as well as NEA's program initiatives.

                Issue 1.2: Does NEA ensure that the recipients of funding are held accountable
                           for meeting their particular reporting requirements and for complying
                           with the terms and conditions applicable to their awards?

                           Strategy: NEA OIG will conduct audits and special reviews (such as
                           evaluations) to verify accountability, allowability, and compliance with
                           terms and conditions. In addition, NEA OIG will continue to review
                           the implementation of corrective actions and advise management as
                           to the effectiveness of the actions and whether the desired results
                           were achieved. Furthermore, NEA OIG will provide technical
                           assistance to grantees on how to maintain a financial management
                           system and on how to comply with the financial aspects of the terms
                           and conditions.

                Issue 1.3: Are NEA's standards for determining grantee eligibility consistent with
                           the Agency’s mission and legislated objectives?

                           Strategy: NEA OIG will survey these measures to assess NEA
                           compliance and evaluate the extent to which stated purposes are
                           being achieved.

                Issue 1.4: Does NEA provide potential applicants with information that is both
                           appropriate and adequate regarding its funding initiatives?

                           Strategy: NEA OIG will survey this function to assess timeliness,
                           adequacy of content, and effectiveness in reaching potential
                           applicants.

                Issue 1.5: Does NEA ensure that applications are processed and evaluated in
                           accordance with legislative requirements and NEA policies?

                           Strategy: NEA OIG will survey and document the existing policies
                           and procedures at the NEA program level, Advisory Panel (Panel)

                                                                                                      5
                       level and the National Council on the Arts (Council) level.
                       Subsequent efforts will focus on areas in which compliance may be
                       improved.

            Issue 1.6: Do NEA’s policies and procedures for its AccessAbility program
                       adequately provide a framework consistent with legislative
                       requirements?

                       Strategy: NEA OIG will conduct surveys and analyses as warranted
                       to assess policies and initiatives for promoting AccessAbility’s goals
                       and objectives.

Issue Area 2:   NEA Administrative Operations

                Major functions include:

                •   Information systems
                •   Financial management
                •   Budget administration
                •   Procurement and facilities
                •   Human resources
                •   Internal controls
                •   Freedom of Information and Privacy Acts

            Issue 2.1: Is NEA efficiently and effectively addressing the need to modernize
                       its information management systems, and in a manner that allows it
                       to continue meeting current operational needs while maintaining
                       consistency with provisions of the Computer Security Act, OMB
                       Circular No. A-130 and the Federal Information Security Management
                       Act of 2002?

                       Strategy: NEA OIG will continue to assist management by:
                       participating in task groups; periodically reviewing and commenting
                       on implementation issues; and performing internal control reviews on
                       new systems with a focus on security and problem prevention.

            Issue 2.2: Does NEA's financial management system provide the management
                       information needed for: (1) budget planning and formulation, budget
                       allocation, and budget review and follow up; and (2) monitoring costs
                       and expenditures in accordance with the requirements and initiatives
                       of Congress, OMB, the Department of the Treasury, and the
                       Accountability of Tax Dollars Act of 2002?

                       Strategy: NEA OIG will conduct, through an independent auditor,
                       financial related audits to verify the integrity of budget execution, the
                       propriety of transactions, the validity of account balances, and the
                       accuracy of financial reports.

            Issue 2.3: Does NEA effectively assure that procurement actions comply with
                       Federal and its requirements?



                                                                                                   6
                       Strategy: NEA OIG will periodically review NEA's procurement
                       activities in accordance with Federal and Agency requirements.

            Issue 2.4: Do NEA's policies and procedures provide a framework for the
                       efficient and effective use of human resources that are consistent with
                       Equal Employment Opportunity (EEO) goals and objectives?

                       Strategy: NEA OIG will conduct surveys and analyses as warranted
                       to: (1) identify patterns and trends; (2) evaluate NEA responsiveness
                       to employee complaints or grievances; and (3) assess management
                       initiatives for promoting EEO goals and objectives.

            Issue 2.5: Are NEA's internal controls adequate to deter and detect fraud,
                       waste, abuse, and mismanagement?

                       Strategy: NEA OIG will conduct audits and other reviews to uncover
                       any weaknesses in internal controls and will prepare management
                       reports with recommendations for corrective action, if applicable.

            Issue 2.6: Do NEA's policies and procedures on Freedom of Information Act
                       (FOIA) and the Privacy Act adhere to Federal laws and regulations?

                       Strategy: NEA OIG will periodically review NEA's policies and
                       procedures for adherence to the Federal laws and regulations on
                       FOIA and the Privacy Act.

Issue Area 3:   OIG Administration and Investigations

                Major Functions Include:

                •   Audit universe
                •   Lines of communication
                •   Allegations’ review
                •   Staff professionalism
                •   Regulatory review

            Issue 3.1: Does NEA OIG maintain an up-to-date audit universe, complete with
                       weighted criteria for assessing audit priorities?

                       Strategy: NEA OIG will update its universe of discrete auditable
                       areas, revising and prioritizing the criteria as appropriate.

            Issue 3.2: Does NEA OIG promote open relations and positive interaction with
                       NEA officials and others?


                       Strategy: NEA OIG will: seek frequent feedback from the Chairman,
                       senior staff and NEA managers as appropriate; actively participate
                       on NEA committees or task forces when opportunities exist to add
                       value. In addition, NEA OIG, when appropriate, will establish
                       relations with Congressional committees, GAO, the Department of
                       Justice and other law enforcement agencies, and the OIG community.
                                                                                            7
Issue 3.3: Does NEA OIG maintain an investigative capability that is appropriate
           for NEA?

           Strategy: NEA OIG will continue to maintain a formal memorandum
           of understanding with the GSA OIG to provide for the temporary
           assignment of professional criminal investigators as needed. OIG
           auditors will screen allegations and other indications of possible
           misconduct to determine whether there is a sufficient basis for
           investigation. If so, NEA OIG will, as appropriate, either refer the
           case to another investigative authority, request the temporary
           assignment of a criminal investigator from GSA OIG, or investigate
           the case as a civil matter with the expectation that, after the
           necessary evidence is gathered and evaluated, the matter will be
           referred to NEA management for administrative action.

Issue 3.4: Does NEA OIG foster the professional growth of its staff?

           Strategy: NEA OIG will establish a staff feedback process to
           encourage the open exchange of information and ideas, and will
           continue to budget training funds adequately to satisfy the continuing
           education standards established by the Comptroller General.

Issue 3.5: Does NEA OIG review existing and proposed legislation and
           regulations to determine their effect on the programs and operations
           of NEA?

           Strategy: NEA OIG will continue to work with management, devising
           a process for ensuring that legislative and regulatory proposals are
           evaluated for their impact on NEA.




                                                                                    8
                       PERFORMANCE MEASURES
These measures are expected to help NEA OIG recognize successes, document
achievements, evaluate progress toward goals, and identify needs for improvement. The
measures are structured along the requirements of the IG Act and are intended to allow
comparisons to previous periods.

•   Feedback from customers on the value added by audit reports and other reviews of
    programs and operations;

•   Assessment of the significance of recommendations implemented to correct deficiencies,
    which should lead to improved operations;

•   The number of technical and advisory activities that benefited from OIG participation;

•   The number of laws and regulations reviewed.




                                                                                             9
                            FIVE-YEAR AUDIT PLAN
                                  2014 - 2018

The following list of audits and audit-related efforts show how NEA OIG plans to use its
available audit resources to implement the strategies previously discussed. The objectives of
each project have been identified along with a short description of the work to be performed.
While the plan is flexible and subject to revision based on management's input and changing
conditions, it reflects our current assessment of relative risks and the most effective use of
limited audit resources.

Criteria for selection include:

•   Statutory requirements and recommendations from other sources of Federal authority such
    as OMB or US Government Accountability Office (GAO);

•   Requests from NEA Chairman or other high authority;

•   Importance of the activity to NEA's mission;

•   Extent of NEA resources committed to the activity;

•   Potential for fraud and other unlawful or improper acts;

•   NEA needs as identified through consultation with representatives of management;

•   Extent of audit coverage provided by GAO, consultants or other outside sources;

•   Newness, changed conditions, or sensitivity of the activity;

•   Adequacy of the existing internal control systems for the activity;

•   Availability of audit staff with needed expertise; and

•   Extent and results of prior reviews by NEA OIG.

•   The review and reporting requirements of the American Recovery and Reinvestment Act of 2009
    (ARRA).

Note: The following pages reflect each year’s audit plan. In addition, on the very last page
there is a list of audits, evaluations or reviews that may be added at anytime to one of the
upcoming years. For purposes of our audit plans, “grantee” refers to NEA grantees,
cooperators or contractors.




                                                                                                 10
                                 AUDIT PLAN - FY 2014

Grantee Audits. Conduct audits and other reviews to: 1) determine the adequacy of grantees'
financial systems for managing and accounting for Federal funds, 2) evaluate the current
financial condition of grantee organizations, and 3) verify compliance with the terms and
conditions of NEA awards. The number of on-site audits to be conducted will depend on the
availability of auditors and travel funds. (Issue 1.2)

Evaluations. Conduct evaluations of grantees to determine the adequacy of financial
management systems and ensure that recordkeeping complies with the requirements
established by OMB and NEA’s General Terms and Conditions. Evaluations will be limited to
reviewing records of one to two awards. The availability of auditors, travel funds and the review
and reporting requirements for ARRA, will dictate the number of evaluations. Anticipate more
than 10 evaluations this year.
(Issue 1.2)

ARRA Reviews. Conduct evaluations and audits to (1) determine whether ARRA recipients are
in compliance with NEA and ARRA guidelines, and (2) compare grantees’ reported versus
projected data concerning numbers, types, and locations of jobs preserved with NEA’s ARRA
grants. The availability of auditors, travel funds and ARRA review and reporting requirements
will dictate the number of evaluations and audits. Most ARRA reviews will be performed
concurrently with grantee audits and evaluations. (Issue 1.2)

Special Reviews. Conduct reviews of grantees' financial information, audit reports and other
materials to: 1) determine compliance with relevant OMB circulars, 2) evaluate audit findings to
determine effect on NEA grants, and 3) make recommendations, if any, is required by the
grantees or NEA. An indeterminate number of reports will be examined throughout the year.
(Issue 1.2)

Audit Followup. Track the status of recommendations for corrective action and provide the
Audit Followup Official and other NEA managers with technical assistance in resolving audit
findings. This activity will be ongoing throughout the year. (Issue 1.2)

Information & Technology Management (ITM) and Privacy Management Review.
Determine whether NEA's ITM policies, procedures, and practices are adequate for meeting its
operational and security needs, and whether they conform to accepted standards and
requirements. Review of security matters will be undertaken in accordance with the Federal
Information Security Management Act of 2002. Privacy review will be done in accordance with
OMB guidance. (Issue 2.1) (Issue 2.6)

Financial Statement Audit. Provide oversight of the independent CPA firm conducting the
financial statement audit of NEA. (Issue 2.2)

Investigations. Investigate all allegations of fraud, waste, abuse, mismanagement, employee
misconduct or any apparent or suspected violation of law or official regulations. Although the
number of investigative reviews to be conducted cannot be predicted with confidence, in recent
years, the annual rate of new cases opened is two to three. (Issue 3.3)

Regulatory Review. Review existing and proposed legislation and regulations for effect on
NEA programs and operations. This activity will be ongoing throughout the year. (Issue 3.5)


                                                                                               11
                                AUDIT PLAN - FY 2015

Grantee Audits. Conduct audits and other reviews to: 1) determine the adequacy of grantees'
financial systems for managing and accounting for Federal funds, 2) evaluate the current
financial condition of grantee organizations, and 3) verify compliance with the terms and
conditions of NEA grants. The number of on-site audits to be conducted will depend on the
availability of auditors and travel funds. (Issue 1.2)

Evaluations. Conduct evaluations of grantees to determine the adequacy of financial
management systems and ensure that recordkeeping complies with the requirements
established by OMB and NEA’s General Terms and Conditions. Evaluations will be limited to
reviewing the records of one to two grants. The availability of auditors, travel funds and the
work requirements for ARRA will dictate the number of evaluations. Anticipate more than 10
evaluations this year. (Issue 1.2)

ARRA Reviews. Conduct evaluations and audits to (1) determine whether ARRA recipients are
in compliance with NEA and ARRA guidelines, and (2) compare grantees’ reported versus
projected data concerning numbers, types, and locations of jobs preserved with NEA’s ARRA
grants. The availability of auditors, travel funds and ARRA review and reporting requirements,
will dictate the number of evaluations and audits. Most ARRA reviews will be performed
concurrently with grantee audits and evaluations. (Issue 1.2)

Special Reviews. Conduct reviews of grantees' financial information, audit reports and other
materials to: 1) determine compliance with relevant OMB circulars, 2) evaluate audit findings to
determine effect on NEA grants, and 3) make recommendations, if any, is required by the
grantees or NEA. An indeterminate number of reports will be examined throughout the year.
(Issue 1.2)

Audit Followup. Track the status of recommendations for corrective action, and provide the
Audit Followup Official and other NEA managers with technical assistance in resolving audit
findings. This activity will be ongoing throughout the year. (Issue 1.2)

Information & Technology Management (ITM) and Privacy Management Review.
Determine whether NEA's ITM policies, procedures, and practices are adequate for meeting its
operational and security needs, and whether they conform to accepted standards and
requirements. Review of security matters will be undertaken in accordance with the Federal
Information Security Management Act of 2002. Privacy review will be done in accordance with
OMB guidance. (Issue 2.1) (Issue 2.6)

Financial Statement Audit. Provide oversight of the independent CPA firm conducting the
financial statement audit of NEA . (Issue 2.2)

Investigations. Investigate all allegations of fraud, waste, abuse, mismanagement, employee
misconduct or any apparent or suspected violation of law or official regulations. Although the
number of investigative reviews to be conducted cannot be predicted with confidence, in recent
years, the annual rate of new cases opened is two or three. (Issue 3.3)

Regulatory Review. Review existing and proposed legislation and regulations for effect on
NEA programs and operations. This activity will be ongoing throughout the year. (Issue 3.5)



                                                                                                 12
                                AUDIT PLAN - FY 2016

Grantee Audits. Conduct audits and other reviews to: 1) determine the adequacy of grantees'
financial systems for managing and accounting for Federal funds, 2) evaluate the current
financial condition of grantee organizations, and 3) verify compliance with the terms and
conditions of NEA grants. The number of on-site audits to be conducted will depend on the
availability of auditors and travel funds. (Issue 1.2)

Evaluations. Conduct evaluations of grantees to determine the adequacy of financial
management systems and ensure that recordkeeping complies with the requirements
established by OMB and NEA’s General Terms and Conditions. Evaluations will be limited to
reviewing the records of one to two grants. The availability of auditors and travel funds will
dictate the number of evaluations. Anticipate more than 13 evaluations this year. (Issue 1.2)

Special Reviews. Conduct reviews of grantees' financial information, audit reports and other
materials to: 1) determine compliance with relevant OMB circulars, 2) evaluate audit findings to
determine effect on NEA grants, and 3) make recommendations, if any, is required by the
grantees or NEA. An indeterminate number of reports will be examined throughout the year.
(Issue 1.2)

Audit Followup. Track the status of recommendations for corrective action, and provide the
Audit Followup Official and other NEA managers with technical assistance in resolving audit
findings. This activity will be ongoing throughout the year. (Issue 1.2)

Information & Technology Management (ITM) and Privacy Management Review.
Determine whether NEA's ITM policies, procedures, and practices are adequate for meeting its
operational and security needs, and whether they conform to accepted standards and
requirements. Review of security matters will be undertaken in accordance with the Federal
Information Security Management Act of 2002. Privacy review will be done in accordance with
OMB guidance. (Issue 2.1) (Issue 2.6)

Financial Statement Audit. Provide oversight of the independent CPA firm conducting the
financial statement audit of NEA. (Issue 2.2)

Investigations. Investigate all allegations of fraud, waste, abuse, mismanagement, employee
misconduct or any apparent or suspected violation of law or official regulations. Although the
number of investigative reviews to be conducted cannot be predicted with confidence, in recent
years, the annual rate of new cases opened is two or three. (Issue 3.3)

Regulatory Review. Review existing and proposed legislation and regulations for effect on
NEA programs and operations. This activity will be ongoing throughout the year. (Issue 3.5)




                                                                                                 13
                                AUDIT PLAN - FY 2017

Grantee Audits. Conduct audits and other reviews to: 1) determine the adequacy of grantees'
financial systems for managing and accounting for Federal funds, 2) evaluate the current
financial condition of grantee organizations, and 3) verify compliance with the terms and
conditions of NEA grants. The number of on-site audits to be conducted will depend on the
availability of auditors and travel funds. (Issue 1.2)

Evaluations. Conduct evaluations of grantees to determine the adequacy of financial
management systems and ensure that recordkeeping complies with the requirements
established by OMB and NEA’s General Terms and Conditions. Evaluations will be limited to
reviewing the records of one to two grants. The availability of auditors and travel funds will
dictate the number of evaluations. Anticipate more than 20 evaluations this year. (Issue 1.2)

Special Reviews. Conduct reviews of grantees' financial information, audit reports and other
materials to: 1) determine compliance with relevant OMB circulars, 2) evaluate audit findings to
determine effect on NEA grants, and 3) make recommendations, if any, is required by the
grantees or NEA. An indeterminate number of reports will be examined throughout the year.
(Issue 1.2)

Audit Followup. Track the status of recommendations for corrective action, and provide the
Audit Followup Official and other NEA managers with technical assistance in resolving audit
findings. This activity will be ongoing throughout the year. (Issue 1.2)

Information & Technology Management (ITM) and Privacy Management Review.
Determine whether NEA's ITM policies, procedures, and practices are adequate for meeting its
operational and security needs, and whether they conform to accepted standards and
requirements. Review of security matters will be undertaken in accordance with the Federal
Information Security Management Act of 2002. Privacy review will be done in accordance with
OMB guidance. (Issue 2.1) (Issue 2.6)

Financial Statement Audit. Provide oversight of the independent CPA firm conducting the
financial statement audit of NEA . (Issue 2.2)

Investigations. Investigate all allegations of fraud, waste, abuse, mismanagement, employee
misconduct or any apparent or suspected violation of law or official regulations. Although the
number of investigative reviews to be conducted cannot be predicted with confidence, in recent
years, the annual rate of new cases opened is two or three. (Issue 3.3)

Regulatory Review. Review existing and proposed legislation and regulations for effect on
NEA programs and operations. This activity will be ongoing throughout the year. (Issue 3.5)




                                                                                                 14
                                AUDIT PLAN - FY 2018

Grantee Audits. Conduct audits and other reviews to: 1) determine the adequacy of grantees'
financial systems for managing and accounting for Federal funds, 2) evaluate the current
financial condition of grantee organizations, and 3) verify compliance with the terms and
conditions of NEA grants. The number of on-site audits to be conducted will depend on the
availability of auditors and travel funds. (Issue 1.2)

Evaluations. Conduct evaluations of grantees to determine the adequacy of financial
management systems and ensure that recordkeeping complies with the requirements
established by OMB and NEA’s General Terms and Conditions. Evaluations will be limited to
reviewing the records of one to two grants. The availability of auditors and travel funds will
dictate the number of evaluations. Anticipate 20 or more evaluations this year. (Issue 1.2)

Special Reviews. Conduct reviews of grantees' financial information, audit reports and other
materials to: 1) determine compliance with relevant OMB circulars, 2) evaluate audit findings to
determine effect on NEA grants, and 3) make recommendations, if any, is required by the
grantees or NEA. An indeterminate number of reports will be examined throughout the year.
(Issue 1.2)

Audit Followup. Track the status of recommendations for corrective action, and provide the
Audit Follow-up Official and other NEA managers with technical assistance in resolving audit
findings. This activity will be ongoing throughout the year. (Issue 1.2)

Information & Technology Management (ITM) and Privacy Management Review.
Determine whether NEA's ITM policies, procedures, and practices are adequate for meeting its
operational and security needs, and whether they conform to accepted standards and
requirements. Review of security matters will be undertaken in accordance with the Federal
Information Security Management Act of 2002. Privacy review will be done in accordance with
OMB guidance. (Issue 2.1) (Issue 2.6)

Financial Statement Audit. Provide oversight of the independent CPA firm conducting the
financial statement audit of NEA . (Issue 2.2)

Investigations. Investigate all allegations of fraud, waste, abuse, mismanagement, employee
misconduct or any apparent or suspected violation of law or official regulations. Although the
number of investigative reviews to be conducted cannot be predicted with confidence, in recent
years, the annual rate of new cases opened is two or three. (Issue 3.3)

Regulatory Review. Review existing and proposed legislation and regulations for effect on
NEA programs and operations. This activity will be ongoing throughout the year. (Issue 3.5)




                                                                                                 15
                                   OTHER ACTIVITIES *

Accessibility. Review NEA's policies and procedures for compliance with laws and regulations
governing accessibility. (Issue 1.6)

EEO. Review NEA's policies and procedures for compliance with laws and regulations governing
equal employment opportunities and the civil rights of NEA employees. (Issue 2.4)

FOIA. Review NEA's policies and procedures for adherence to Federal laws and regulations.
(Issue 2.6)

Grant Award Process. Review NEA's policies and procedures for providing potential applicants
with information that is appropriate and accurate. The review also will assess timeliness, adequacy
of content, and effectiveness in reaching potential applicants. (Issue 1.4) Review NEA's policies
and procedures employed by staff, advisory panelists and Council operations in the screening of
grant applications and the awarding of grants to ensure there is fair and equitable treatment along
with proper enforcement of the eligibility rules. (Issues 1.3 and 1.5)

IPERA. Review NEA's compliance with the Improper Payments Elimination and Recovery Act
of 2010. (Issue 2.3)

Procurement. Review NEA's procurement activities for compliance with Federal regulations and
Agency policies. (Issue 2.3)

Supply Management. Review policies and procedures to uncover any weaknesses in
administrative controls. (Issue 2.5)

Transit Benefits. Review and test for adequacy of controls over NEA's transit benefits program.
(Issue 2.5)

Travel. Review NEA’s controls related to approving and monitoring the travel of NEA employees.
In addition, ensure that travel’s purpose is both reasonable and appropriate to NEA's mission.
(Issue 2.5)




*   The above areas may be considered at any time for an audit, evaluation or review based on the
    discretion of NEA OIG.

                                                                                                  16
                     REPORTING WRONGFUL ACTS
Anyone, including NEA employees, who learns about or has reason to suspect the occurrence of
any unlawful or improper activity related to NEA operations or programs, should contact NEA
OIG immediately. A complaint/referral may be reported using any of the following methods:

               Toll-free NEA OIG Hotline: 1-877-535-7448
               Local Calls: 202-682-5479
               Fax: 202-682-5649
               Email: oig@arts.gov
               Website: www.arts.gov/about/oig/fraud.html


You may also visit or write us at the National Endowment for the Arts, Office of Inspector
General, Room 601, 1100 Pennsylvania Avenue, NW, Washington, DC 20506.

When contacting NEA OIG, it will help if you have answers to the following questions:

   •   Who are the parties involved (names, addresses and phone numbers if possible);

   •   What is the suspected activity (specific facts of the wrongdoing);

   •   When and where did the wrongdoing occur;

   •   How did you learn about the activity (from a third party, actual observation, conclusion
       drawn from observing or performing different activities, etc.); and

   •   Where can you be contacted or when will you contact us again.

While anonymous complaints are welcome, please understand that a lack of sufficient and
specific information may mean that our office is unable to investigate the allegation. NEA OIG will
not disclose the identity of a complainant or informant without consent, unless the Inspector
General determines that such disclosure is unavoidable during the course of the investigation.
Federal employees are protected against reprisal for disclosing information to the Inspector
General unless such disclosure was knowingly false.
